<html>
<title> - A THREAT TO AMERICA'S CHILDREN: THE TRUMP ADMINISTRATION'S PROPOSED CHANGES TO THE POVERTY LINE CALCULATION</title>
<body><pre>[House Hearing, 116 Congress]
[From the U.S. Government Publishing Office]


                    A THREAT TO AMERICA'S CHILDREN:
                       THE TRUMP ADMINISTRATION'S
                        PROPOSED CHANGES TO THE
                        POVERTY LINE CALCULATION

=======================================================================

                                HEARING

                               BEFORE THE

                 SUBCOMMITTEE ON GOVERNMENT OPERATIONS

                                 OF THE

                   COMMITTEE ON OVERSIGHT AND REFORM

                        HOUSE OF REPRESENTATIVES

                     ONE HUNDRED SIXTEENTH CONGRESS

                             SECOND SESSION

                               __________

                            FEBRUARY 5, 2020

                               __________

                           Serial No. 116-87

                               __________

      Printed for the use of the Committee on Oversight and Reform


[GRAPHIC NOT AVAILABLE IN TIFF FORMAT]


                  Available on: http://www.govinfo.gov
                     http://www.oversight.house.gov
                     
                              __________
                               

                    U.S. GOVERNMENT PUBLISHING OFFICE                    
39-657 PDF                  WASHINGTON : 2020                     
          
--------------------------------------------------------------------------------------                     
                     
                     
                     
                     
                   COMMITTEE ON OVERSIGHT AND REFORM

                CAROLYN B. MALONEY, New York, Chairwoman

Eleanor Holmes Norton, District of   Jim Jordan, Ohio, Ranking Minority 
    Columbia                             Member
Wm. Lacy Clay, Missouri              Paul A. Gosar, Arizona
Stephen F. Lynch, Massachusetts      Virginia Foxx, North Carolina
Jim Cooper, Tennessee                Thomas Massie, Kentucky
Gerald E. Connolly, Virginia         Mark Meadows, North Carolina
Raja Krishnamoorthi, Illinois        Jody B. Hice, Georgia
Jamie Raskin, Maryland               Glenn Grothman, Wisconsin
Harley Rouda, California             James Comer, Kentucky
Debbie Wasserman Schultz, Florida    Michael Cloud, Texas
John P. Sarbanes, Maryland           Bob Gibbs, Ohio
Peter Welch, Vermont                 Clay Higgins, Louisiana
Jackie Speier, California            Ralph Norman, South Carolina
Robin L. Kelly, Illinois             Chip Roy, Texas
Mark DeSaulnier, California          Carol D. Miller, West Virginia
Brenda L. Lawrence, Michigan         Mark E. Green, Tennessee
Stacey E. Plaskett, Virgin Islands   Kelly Armstrong, North Dakota
Ro Khanna, California                W. Gregory Steube, Florida
Jimmy Gomez, California              Frank Keller, Pennsylvania
Alexandria Ocasio-Cortez, New York
Ayanna Pressley, Massachusetts
Rashida Tlaib, Michigan
Katie Porter, California
Deb Haaland,, New Mexico

                     David Rapallo, Staff Director
              Wendy Ginsberg, Subcommittee Staff Director
               Christopher Hixon, Minority Staff Director
                          Amy Stratton, Clerk

                      Contact Number: 202-225-5051
                                 
                                 ------                                

                 Subcommittee on Government Operations

                 Gerald E. Connolly, Virginia, Chairman
Eleanor Holmes Norton, District of   Mark Meadows, North Carolina, 
    Columbia,                            Ranking Minority Member
John P. Sarbanes, Maryland           Thomas Massie, Kentucky
Jackie Speier, California            Jody B. Hice, Georgia
Brenda L. Lawrence, Michigan         Glenn Grothman, Wisconsin
Stacey E. Plaskett, Virgin Islands   James Comer, Kentucky
Ro Khanna, California                Ralph Norman, South Carolina
Stephen F. Lynch, Massachsetts       W. Gregory Steube, Florida
Jamie Raskin, Maryland
                         
                         C  O  N  T  E  N  T  S

                              ----------                              
                                                                   Page
Hearing held on February 5, 2020.................................     1

                               Witnesses

Panel 1
Rep. Alexandria Ocasio-Cortez (D-NY)
Oral Statement...................................................     6
Rep. Carol D. Miller (R-WV)
Oral Statement...................................................     7
Panel 2
Mr. Indi Dutta Gupta, Co-Executive Director, Center on Poverty, 
  Georgetown Law
Oral Statement...................................................     9
Sister Simone Campbell, Executive Director, Network Lobby
Oral Statement...................................................    11
Mr. Rob Smith, Advisory Board Member, Legacy Republican Alliance
Oral Statement...................................................    13
Ms. Amy Jo Hutchison, Organizer, Healthy Kids and Families 
  Coalition, West Virginia
Oral Statement...................................................    15

Written opening statements and statements for the witnesses are 
  available on the U.S. House of Representatives Document 
  Repository at: https://docs.house.gov.

                           Index of Documents

                              ----------                              

The Documents listed below are available at: https://
  docs.house.gov.

  * Statement for the Record; submitted by Rep. Meadows.

  * Letter of Support from First Focus; submitted by Rep. 
  Connolly.

  * Letter of Support from Patient Groups; submitted by Rep. 
  Connolly.

  * Letter for the Record from Faith Based ALL sign-on; submitted 
  by Rep. Connolly.

  * NPAF Statement for the Record; submitted by Rep. Connolly.

  * Letter of Support from A Jewish Response to Poverty; 
  submitted by Rep. Connolly.

  * Letter of Support NWLC; submitted by Rep. Connolly.


 
                    A THREAT TO AMERICA'S CHILDREN:
                       THE TRUMP ADMINISTRATION'S
                        PROPOSED CHANGES TO THE
                        POVERTY LINE CALCULATION

                              ----------                              


                      Wednesday, February 5, 2020

                   House of Representatives
      Subcommittee on Government Operations
                          Committee on Oversight and Reform
                                                   Washington, D.C.

    The subcommittee met, pursuant to notice, at 10:08 a.m., in 
room 2154, Rayburn Office Building, Hon. Gerald E. Connolly 
(chairman of the subcommittee) presiding.
    Present: Representatives Connolly [presiding], Maloney, 
Norton, Sarbanes, Lawrence, Plaskett, Khanna, Ocasio-Cortez, 
Meadows, Massie, Hice, Grothman, Comer, Miller, and Steube.
    Mr. Connolly. Committee will come to order.
    Without objection, the chair is authorized to declare a 
recess of the committee at any time, and I now recognize myself 
for my opening statement.
    And we welcome our witness, our colleague, Representative 
Ocasio-Cortez, and I know she is going to be joined by 
Representative Miller hopefully soon.
    The ranking member, Mr. Meadows is on his way, but I am 
going to get started so that we do not have undue delays for 
the hearing.
    I was 17 years old when Robert Kennedy, then Senator from 
New York, father of 10 children at the time, traveled to the 
Mississippi Delta to see firsthand the hunger and poverty 
experienced by the families and children living there.
    He was inspired to do so by congressional testimony from a 
civil rights lawyer named Marion Wright Edelman, at the time 
Marion Wright. She was the founder of the Children's Defense 
Fund and the first African American woman admitted to the 
Mississippi bar.
    The images of RFK's tour were searing. They left an 
indelible mark on our national images and understanding of 
poverty, and they showed the Nation the faces of people who are 
all too often otherwise forgotten. Fifty years later, we are 
revisiting Marion Wright's testimony, but this time, the face 
of the administration's assault on the poor.
    Today we commence a series of four hearings that will lay 
bare the Trump administration's attempts to gut regulations and 
programs that protect the health and welfare of our Nation's 
children. This hearing in particular will examine what it means 
to experience poverty in America, explore the inaccuracy of the 
Federal Government's current and proposed measures of poverty, 
and consider our government's responsibility to help Americans 
struggling to break free from the cycle of poverty.
    Specifically, we will look at how a recent Trump 
administration proposal to recalculate the poverty threshold 
would in fact make poverty lines less accurate and deprive 
hundreds of thousands of children access to critical healthcare 
and nutritional benefits.
    In May 2019, the Office of Management and Budget published 
a proposal to change the inflation index used to calculate 
annually the poverty threshold. While a switch to a different 
cost-of-living adjustment may seem like a small measure and a 
technicality, the ripple effects of this proposal are not. They 
would be quite consequential.
    If OMB elected to use a Chained Consumer Price Index, CPI, 
for example, the poverty line's growth would slow by about 0.2 
percentage points a year. Not because we have conquered 
poverty, but because we simply redefined it.
    If the administration moves to a chained price index, by 
2030, the poverty line for a family of four would be $691 lower 
than it would be using the existing inflation index. Over time, 
the impact of using that chained CPI to calculate the poverty 
threshold compounds, prompting really consequential impacts on 
families and children who rely on social safety nets to access 
food, healthcare, and eventually to escape poverty.
    While a $691 reduction of the poverty line may seem like a 
modest impact, it is not, especially when you are living day by 
day, dollar by dollar, to make ends meet as all too many 
Americans still are.
    After 10 years with the Chained CPI reducing the poverty 
line by roughly two percent, the Center on Budget and Policy 
Priorities estimates that more than 300,000 children would lose 
healthcare.
    More than 200,000 school-aged children would lose 
eligibility for free or reduced-price school meals. That 
number, by the way, is bigger than the entire school system of 
my district, my county, which is the tenth largest school 
district in America.
    Nearly 200,000 people, mostly in working households, would 
lose their Supplemental Nutritional Assistance Program, or 
SNAP, benefits, and 40,000 infants and young children would 
lose benefits for supplemental nutrition.
    Those are not insignificant numbers. The two-percent drop 
in inflation would affect eligibility in 80 anti-poverty 
programs. The impacts of that are yet to be measured.
    Children would lose access to these life-changing programs 
not because their parents had more money in their pockets, but 
simply because the administration decided to define poverty in 
a way that redefines reality.
    The administration cannot solve the Nation's poverty 
problem by simply lowering the dollar amount that defines 
poverty and claim victory. Its efforts disregard the hardships 
that those experiencing poverty endure, and they ignore the 
growing body of evidence that show those in poverty face higher 
rates of inflation and therefore have less access to basic 
needs.
    The premise of the administration's proposal is that every 
customer has choices, such as the option to swap to a cheaper 
product when prices escalate, but those in poverty often do not 
face choices. Retail choices are limited. Food choices are 
limited. Convenience and proximity are limited in terms of 
access and transportation.
    Second, those in poverty spend most of their income on 
basic necessities already: medical care, housing, utilities. 
The costs of these basic needs have skyrocketed in comparison 
to the broader basket of goods assessed in the standard 
inflation rate.
    Let's give one example. The cost of rent in America, and in 
some parts of the country much higher, has gone up by 31 
percent in the last 10 years--31 percent. The existing 
inflation index rose by 17 percent. And if we use the 
administration's Chained CPI, it would have gone up only 14 
percent. So, rent, 31 percent; inflation where we peg poverty, 
14 percent--a growing gap.
    Given the criticality and the flawed assumptions baked into 
the proposal, it is no surprise that OMB received over 57,000 
comments, and counting, most in opposition to lowering the 
inflation index for the official poverty measure.
    OMB's proposal failed to acknowledge that many government 
programs are administered using the poverty threshold and the 
huge impact it would have on children's access to vital 
programs. The administration's proposal to lower the poverty 
line ignores growing income inequality, and to me, misses the 
point entirely.
    The inadequacy of the existing poverty calculation is that 
it is too low, not that it is too high. In 2020, across all 48 
contiguous states and the District of Columbia, the poverty 
threshold for a family of four is $26,200. Even in the poorest 
counties of our country, it is hard to imagine a family of four 
getting by on an annual income of $26,200.
    Just last year, the National Academy of Sciences released a 
report that found child poverty costs the Nation between 800 
billion and $1.1 trillion annually. The report also stated our 
Nation could reduce poverty by 50 percent by simply increasing 
SNAP benefits, increasing housing vouchers, and expanding the 
social net. These actions would cost a lot less than that 
trillion-dollar cost of doing nothing.
    I commend my colleague, Congresswoman Ocasio-Cortez, on her 
legislation, Recognizing Poverty Act, that tackles the 
inadequacy of our current poverty measured by directing the 
Department of Health and Human Services and statistical 
agencies to propose a new poverty line that makes more sense.
    We are long overdue for a complete rewrite of a poverty 
threshold that was established over a half a century ago. This 
bill requires the updated poverty line to factor in geographic 
cost variation, cost-related health insurance, work expenses, 
childcare, and new necessities such as Internet access, all of 
which are excluded from the existing poverty measure. Hard to 
believe, but they are.
    I am proud to be an original co-sponsor of Ms. Ocasio-
Cortez' bill, and I hope many of my subcommittee colleagues 
will join in this effort.
    If there is one basic value that ought to unite us on this 
committee and in the Congress as Democrats and Republicans, it 
is how we treat our children. It does not matter where these 
children live or whose children they are. They are in our care. 
They are in our charge. They are America's children.
    With that, I--do you want to go first, or do you want me to 
call upon the chairman of the full committee?
    Mr. Meadows. Knowing that this is a political environment, 
I would certainly want you to call on the chairman of the full 
committee, and then I will be glad to go after that.
    Mr. Connolly. Thank you, Mr. Meadows.
    Chairwoman Maloney. Well, I would say, Mr. Chairman, that 
it is not a political hearing. It is a very substantive and 
important one, and I think that the ranking member should go 
first, and I will follow him.
    Mr. Connolly. With that, I call upon Mr. Meadows, the 
ranking member.
    Mr. Meadows. Well, I thank you both. Mr. Chairman, thank 
you for calling this hearing, and obviously this is a critical 
issue.
    I can say that in my district in western North Carolina, 
free and reduced lunches and a number of other issues that 
relate to poverty is still a present-day problem, and so I 
thank you for highlighting this particular issue. I thank both 
of my colleagues for being here today to address it from two 
different perspectives in two different states. So, I thank you 
both.
    I would say this: One of the concerns I have is the 
premature nature of this hearing. The Trump administration has 
taken no action, and I would repeat no action, other than 
public comment.
    And there are two different buckets that we are looking at 
here. And the chairman knows that as it relates to other issues 
with regards to inflation indexing, chained, you know, whatever 
you want to call it, I have a real concern when we look at the 
real inflation rate that not only those in poverty face, but 
our seniors face, as well. Because sometimes the way the 
government calculates this is on the purchase of iPods and 
iPads, and I can tell you that a lot of times, those that are 
affected the most, they are not making those kinds of 
purchases. They are purchasing food and rent and the basic 
necessities to stay--really, to live.
    And, so, I think it is important that we look at this. The 
public comment that we are facing here is looking at two 
different buckets, what should go into it, how should it be 
adjusted. And, so, as we look to move forward with this, what I 
would love to do is work in a bipartisan way to really address 
the real need of what we have here.
    There is no denying that the economy is growing. And in 
fact, just the other day as I looked at economic numbers--and 
some would say well, it is only the economic numbers for the 
very top percentage, but actually, the increase in our economy 
has affected the bottom 10 percent more than it has any other 
group as the economy continues to go.
    Those are facts. Those are statistics that the Department 
of Labor and certainly the economic advisors have. And yet, is 
there a real problem that we need to continue to address? The 
answer is certainly yes.
    And, so, with that, I would just ask that my entire written 
statement be made part of the record, and I would be glad to 
yield to the----
    Mr. Connolly. Without objection, and I thank my friend. I 
know he is committed to addressing issues of poverty. He and I 
worked together on a hearing on houseboats and we both 
learned----
    Mr. Meadows. And I thank you for that.
    Mr. Connolly. We both learned the impact of banning 
houseboats on lower income folks in your district. And I saw 
your commitment, so of course we will be glad to work with you 
on a bipartisan basis, but we also want to highlight what could 
happen if the administration moves forward on its proposal.
    And I call on the distinguished chairman of the full 
committee, Ms. Maloney, for an opening statement.
    Chairwoman Maloney. Thank you. Good morning, everyone, and 
I thank you all for coming. And as Chair of the Oversight and 
Reform Committee, I want first to thank my friend and 
colleague, Gerry Connolly, for calling this very important 
hearing on the proposed recalculation of the poverty line. And 
I also would like to thank my friend and colleague from the 
great state of New York, Ocasio-Cortez, for her hard work and 
dedication and research on this issue.
    This is the first in a series of four hearings that we are 
going to hold over the next two days, today and tomorrow, on 
the negative effects on children of the Trump administration's 
poverty, housing, hunger, and health regulations.
    Put simply, the administration is engaged in an attack on 
children. Instead of creating economic opportunity and ensuring 
the health and wellbeing of our Nation's children, this 
administration prioritizes special interests at their expense. 
It is our responsibility as a Nation, and as lawmakers in 
particular, to protect all of our children from harm. We will 
not stand idly by as this administration implements policies 
and regulation that impede child development.
    Today, we examine the Office of Management and Budget's 
proposal to adopt an inflation rate that would purge thousands 
of children from eligibility and programs that promote growth 
and help them escape from poverty. The administration's efforts 
remove access to essential and proven services, such as 
healthcare and nutrition assistance. I find it particularly 
disturbing that this administration fights for tax breaks for 
the more fortunate while it seeks to take food literally from 
the mouths of hungry children by proposing to cut the SNAP 
program.
    This hearing will highlight how any change to the social 
safety net should do more, not less, to help America's 
children.
    I look forward to the testimony from both of my 
distinguished colleagues, and I yield back.
    Mr. Connolly. I thank the distinguished Chair, and thank 
you so much for joining us again this morning.
    I now want to welcome our first panel, which will consist 
of our committee colleagues who will discuss ways to accurately 
measure poverty in the United States.
    Congresswoman Alexandria Ocasio-Cortez of New York, who is 
the author of the bill I mentioned, and Congresswoman Carol 
Miller of West Virginia. Welcome to both of you.
    I thank my colleagues for their testimony, and without 
objection, both of you are welcome to join us in the dais and 
participate in the remainder of this hearing.
    Ms. Ocasio-Cortez, welcome.

STATEMENT OF HON. ALEXANDRIA OCASIO-CORTEZ, A REPRESENTATIVE IN 
              CONGRESS FROM THE STATE OF NEW YORK

    Ms. Ocasio-Cortez. Thank you, Chairman Connolly. I am 
honored to be here today on behalf of my constituents in New 
York's 14th congressional District. And I want to thank you and 
this entire subcommittee, as well as the committee at-large, 
for participating and leading this week's historic hearings to 
examine the status of our Nation's children.
    I am testifying today not only as a Member of Congress, but 
as a former child of a family in poverty and who has family 
that continues to live in poverty.
    I am the daughter of a domestic worker. My mother cleaned 
houses growing up, and I grew up doing my homework on the 
stairs of other people's houses and on other people's kitchen 
tables and reading in other people's living rooms as my mother 
scrubbed toilets and swept floors to make sure that we had a 
better life.
    I am also the daughter of young business owner. My dad, at 
the age of 29, had me and started a business at a very young 
age. Growing up, we struggled a lot. Right around the time 
things started turning up better for my family, my father was 
diagnosed with Stage 4 lung cancer and he passed away when I 
was about 18 years old. Suddenly, I was the daughter of a 
single mom.
    Growing up, trying and striving as a first generation 
family, to be able to be the first in my family to go to 
college, to work, and to have the distinguished honor of 
interning for the late Senator Kennedy in that time. And then 
after graduating college, returning home to the Bronx, to my 
community, to try to make a difference, to see that these 
cycles of intergenerational poverty cannot be broken unless we 
take deep, strong, and systemic action.
    Oftentimes, we hear and see a lot of, I believe, 
unnecessary--there is a lot of unnecessary, I would say, 
scandal that is kicked up around the poverty line; that 
recognizing poverty is some secret conspiracy to expand our 
social safety nets. Because in a time of endless war and 
corporate giveaways, one of the biggest mistakes we can make, I 
suppose, is to help people too much. But, I do believe that 
what we need to do is actually recognize the state of poverty 
in the United States.
    The current level of the poverty line is simply being 
calculated by the price of minimum dietary requirements times 
three.
    The current poverty line assumes that you have a spouse at 
home, fulltime, taking care of your children.
    The current poverty line assumes that you do not really 
have any significant healthcare costs.
    The current poverty line does not acknowledge geographic 
difference, which in a time when people complain and talk about 
how government does not understand the regional difference 
between urban, suburban, and rural communities, our poverty 
line treats all of these communities exactly the same.
    All of this is wrong. And even with that drastically 
mistaken number, even with that and by that calculation today, 
40 million Americans live in what the government recognizes as 
poverty--that is one in 10; 18.5 million Americans live in 
recognized extreme poverty; and 5.3 million Americans live in 
recognized absolute poverty.
    You know, last year I spent a very long time putting 
together, along with our team and with other members and you 
included, colleagues of Congress, the Recognizing Poverty Act. 
This asks the Federal Government to do a simple thing: to 
actually measure the amount of poor people in the United States 
of America. We do not do that. And, as a consequence, America 
is in a state of denial about the level of poverty in this 
country. As a consequence of that, we do not truly understand 
the actual status of where people are.
    So, as a consequence, the Recognizing Poverty Act requires 
the Secretary of Health and Human Services, in collaboration 
with the Census Bureau and the Bureau of Labor Statistics, to 
work with the National Academy of Sciences to change the 
poverty line, adjusting for family size and geographic 
differences in the cost of goods and services.
    We must look at where our children live and what they need 
because we cannot go another year with kids not getting food 
that they need; not--losing parents because they cannot afford 
healthcare. This is a moral wrong. And for children to lose 
their parents because they cannot afford insulin or 
chemotherapy in what we proudly call the richest country in the 
world, is a moral injustice and a moral outrage.
    Thank you very much.
    Mr. Connolly. Thank you so much and thank you for your 
leadership on this issue.
    Representative Miller, welcome.

 STATEMENT OF HON. CAROL MILLER, A REPRESENTATIVE IN CONGRESS 
                FROM THE STATE OF WEST VIRGINIA

    Mrs. Miller. Thank you, Chairman Connolly and Ranking 
Member Meadows. What an honor it is to be here in front of you 
today. I want to speak about the positive effects of the Trump 
economy in my home state of West Virginia.
    After years of over-burdensome regulation, we are finally 
seeing incremental, positive change in my state. Positive 
economic changes like this do not happen overnight, but it 
takes years to see, and I am excited to see that that is 
happening in West Virginia.
    When it comes to poverty, we should always strive to do 
better. When we talk about poverty, we must also recognize how 
far we have passed from where we were five or 10 years ago. We 
must build upon this progress, not destroy it.
    It is innovation that has driven humankind forward. And as 
a farmer, I learned by myself that necessity is the mother of 
invention. It has improved our quality of life. It has extended 
our life expectancy and it has made our society healthier and 
more vibrant. Innovation is the engine of our society's 
progress, and capitalism is the fuel that powers it.
    When West Virginia became a state, the quality of life was 
not nearly what it is today. There were no antibiotics, 
electricity, or running water in homes, no vaccines. And even 
if you lived in the top echelon of society in 1863, your life 
expectancy was nearly half of what it is today. A century and a 
half ago, the richest person in the world would envy the 
standard of life that we are ensuring for every single 
American.
    That being said, only a few years ago in West Virginia, we 
experienced the darkest time in recent history. In 2009, 
President Obama's administration took drastic steps to wage war 
on the coal industry. In January of that year, there were 
86,400 coalminers in the United States, and by the end of his 
administration, the number dropped all the way to 50,600. In 
2009, West Virginia had 20,927 individuals employed in 
coalmining, and this number dropped to 16,000 by 2016.
    West Virginians have witnessed the devastating impacts of 
poorly thought out policy. Not only were thousands of 
coalminers out of work, but communities surrounding them 
struggled, too. Machine shops, grocery stores, motels, clothing 
stores, all the surrounding businesses suffered. Sometimes they 
were shuttered completely as a result of disastrous policies. 
Small business and entrepreneurship are the heart and soul of 
our towns, and the war on coal collapsed these communities like 
dominoes.
    The devastation around the communities gave rise to great 
hopelessness, and when people experience despair, they will 
turn to anything to numb their pain. In the case of West 
Virginia, we saw the devastating rise of the opioids. My state 
experienced three times the number of opioid overdose deaths 
than the national average.
    In 2016, the excitement of having a new leader, a 
businessman and someone who understands economics, helped 
breathe new life into West Virginia. Our unemployment rate is 
now at five percent, down over three percent from the height of 
the Obama Administration.
    And over 374,000 people who were receiving SNAP benefits at 
that time. Since Trump's election, we have seen the number 
decrease by 315,000. This decrease means that more individuals 
have the opportunity to work and provide for their families. 
Thanks to the Tax Cuts and Jobs Act, we are seeing people 
across the country taking home more of their hard-earned money.
    Furthermore, the administration has drastically reduced 
these over-burdensome regulations and made our country more 
business friendly. The economy and the competition has created 
increased wages five percent annually for workers in West 
Virginia. It is hard to argue with the numbers.
    As I discussed earlier, innovation is crucial to move our 
country forward. The President has given businesses the 
opportunity to create new jobs and build life-saving solutions 
to further increase the quality of life. And certainly, there 
are still many individuals and many families who are 
struggling, and we must continue to move forward and help them. 
But, I must say that West Virginia is doing better.
    I have reviewed the Notice for Comment by the Office of 
Management and Budget, and I want to stay engaged with it. 
However, I think that this particular hearing is premature and 
will only instill fear into individuals and families. We should 
not be spreading falsities that the government is going to take 
away benefits when in fact that is not true.
    As we sit here today, we can disagree on the causes, and we 
can disagree on the solution. But there is one thing I want to 
say before I finish. Every person in this room cares, and do 
not let anyone tell you otherwise. My colleagues in both 
parties join me here today. They are good people who care about 
eliminating poverty in our society.
    Those in the administration and in the previous 
administration and in our states and local government, they are 
good people and they care about eliminating poverty in our 
society.
    We can disagree on what helps and what hurts, but our goals 
are the same. I know that a strong economy is the best way to 
lift our neighbors and friends out of poverty. We must support 
an environment with stable tax policy where businesses can 
create jobs and good-paying wages, and where competition helps 
spur innovation.
    The only thing that has ever lifted people out of poverty 
is opportunity and the desire to achieve more. Our goal must be 
to provide that path for every American to walk down.
    Thank you, Chairman Connolly.
    Mr. Connolly. Thank you. I will point out that you are 
comparing today to 1863. My seat that I hold in Virginia, we 
had 11 seats back then and we lost my seat because of the 
succession of West Virginia. We did not get it back until 1992.
    [Laughter.]
    Mr. Connolly. Just thought I would mention that. Anyway, we 
want to thank you both so much for coming here today, and you 
are both welcome to join the panel for the hearing if you have 
time.
    We will now call our second panel. As we are getting ready, 
let me introduce who is coming.
    Mr. Indi Dutta Gupta, who is the co-executive director of 
the Center of Poverty at Georgetown Law School; a familiar 
face, Sister Simone Campbell, executive director of Network 
Lobby; Rob Smith, member of the president's advisory board of 
the Legacy Republican Alliance; and Amy Jo Hutchison, who is an 
organizer for Healthy Kids and Families Coalition in West 
Virginia.
    Welcome, everybody.
    [Witnesses sworn.]
    Mr. Connolly. Thank you. Let the record show that all of 
our witnesses answered in the affirmative.
    The microphones are sensitive, so if you will pull them up 
close to you. That way we all hear you.
    Your full statement will be entered into the record, and so 
we encourage everybody to summarize their testimony as best 
they can, and each of you has five minutes in which to do so.
    We will begin with you, Mr. Dutta Gupta.
    Mr. Gupta. Thank you, Chairman Connolly.
    Mr. Connolly. I forgot to say, you have to press the button 
to turn it on.

STATEMENT OF INDI DUTTA GUPTA, CO-EXECUTIVE DIRECTOR, CENTER ON 
                    POVERTY, GEORGETOWN LAW

    Mr. Gupta. Thank you, Chairman Connolly, Ranking Member 
Meadows, and the members of the subcommittee and committee.
    My name is Indi Dutta Gupta, and I am co-executive director 
of the Georgetown Center on Poverty and Inequality. I have 
worked on the issue of poverty measurement for over a decade, 
and I am honored to speak before this subcommittee about the 
importance of an accurate poverty measurement for children, 
families, and society as a whole.
    Measuring and understanding economic hardship is essential 
to creating a society in which everyone has, at a minimum, a 
decent standard of living.
    Currently we use the poverty measure in two crucial ways. 
First, it helps us paint a statistical picture of poverty to 
understand our economy's performance and reveal who experiences 
income deprivation, which is more common than many of us 
appreciate, yet very substantial across people and place, in 
part because of serious social and economic barriers, such as 
discrimination in the labor and housing markets, segregation, 
systemic racism, and mass incarceration.
    Second, because policymakers have recognized how harmful 
poverty is in our country, they use the poverty measure for 
targeting resources, including through over 80 Federal 
programs, like Medicaid, SNAP, and the National School Lunch 
Program. These programs keep millions of people out of poverty 
and help boost wages, earnings, and educational and health 
outcomes, in turn advancing our Nation's long-term prosperity.
    These two purposes require an accurate, thorough poverty 
measurement consistent with the lived experiences of income 
deprivation in the United States. Yet, as we heard from 
Representative Ocasio-Cortez, the official poverty measure is 
largely based on 1950's, family arrangements, and spending 
patterns, and on 1960's emergency food diet, primarily updated 
for inflation over the past half century.
    Today, these outdated assumptions have vast implications 
for hundreds of billions of dollars of funding for economic 
security and opportunity programs and result in an overly 
optimistic picture of financial hardship in this country.
    So, there is a strong case for new approaches to measuring 
poverty. Many alternative updates to the official poverty 
measure, including the supplemental poverty measure, the Census 
Bureau's preferred alternative measure, as well as public 
opinion, suggest that both the poverty thresholds and rates 
should be higher, not lower.
    The Trump administration is considering a proposal that 
would change the inflation index used to update the official 
poverty measure to the Chained Consumer Price Index, which 
grows more slowly than the currently used inflation index. The 
proposed change is technically questionable, economically 
unwise, and morally troubling.
    While the Chained Consumer Price Index may measure average 
inflation across the whole economy with some accuracy, it is 
not intended to be an accurate measure for people with low 
incomes.
    But more importantly, updating a poverty measure only for 
inflation, regardless of the inflation index, at best acts to 
freeze in time living standards, which is inappropriate for 
measuring income deprivation.
    Economist and philosopher Adam Smith observed that while a 
linen shirt was considered a luxury in the past, lacking one 
indicated poverty in much of the late 18th century Europe. 
Centuries later and an ocean away, in 1964 and in these very 
buildings, Republican members of the Joint Economic Committee 
wrote, ``In America, as our standard of living rises, so does 
our idea of what is substandard.'' I couldn't agree more.
    The administration's proposal would gradually shrink the 
already-low Federal poverty line relative to its current 
trajectory. In turn, fewer people would be eligible for 
foundational support programs as the proposal's effects 
compound over time.
    Hundreds of thousands of children would lose access to 
programs like Medicaid and SNAP, which improve kids' health 
when they become adults, and increase their educational 
attainment, including high school graduation rates. Programs 
like WIC, which reduce infant mortality and improve birth 
outcomes, would also see declines in participation.
    This is a crucial conversation for our country. Poverty 
lines should always be connected to our living standards. Our 
current method of measuring poverty falls short, but the 
administration's proposal arbitrarily singles out and dubiously 
adjusts one aspect of the poverty measure without accounting 
for the broader ramifications to the measure's usefulness, 
relevance, and accuracy. This change would move the overall 
measure in the wrong direction.
    Instead, changes to poverty measurement should be 
considered carefully through significant research in 
consultation with experts, including people with lived 
experience with poverty.
    As someone who immigrated to this country with my family 
carrying $80 and having a place to stay, I will say this: This 
seemingly technical change poses enormous dangers to families 
struggling against structural barriers to their own prosperity. 
And as a researcher who has worked on this issue for years, I 
will say this: This change poses very real dangers to our 
Nation's prosperity, as well.
    Thank you. I look forward to taking questions.
    Mr. Connolly. Thank you. Perfectly timed. Sister Campbell, 
welcome back. You have five minutes.

   STATEMENT OF SISTER SIMONE CAMPBELL, EXECUTIVE DIRECTOR, 
                         NETWORK LOBBY

    Sister Campbell. Thank you, Chairman Connolly and Ranking 
Member Meadows. It's an honor for me to appear here for our 
organization, Network Lobby for Catholic Social Justice. I'm 
honored to address this critical issue of what is happening, 
how do we determine poverty, and what do we use to assess it 
into the future.
    Today's hearing is examining this impact on children of a 
proposed regulation modifying the calculation of the Consumer 
Price Index. The two topics of Chained CPI and children might 
seem totally disconnected, but I'm here to tell you that they 
are integrally connected and not in a good way.
    Chained CPI is based on the upper class experience of 
comparison shopping and buying in bulk. If we apply the 
experience of the wealthy to low-income families, we deny 
struggling families their experience, exacerbate their poverty, 
and thus hurt their children. By reducing the CPI over time, it 
will push parents and their children off critical life-saving 
programs, which has been the design of the current 
administration.
    At Network, on our various Nuns on the Bus campaigns, we 
have traveled the country, listening to people's experience and 
lifting up Federal policies that can make a difference in their 
lives. Additionally, in 2019, our organization held 17 
roundtables in rural communities in 16 states. So that you can 
have some sense of the breadth of our travel, I invite you to 
look at our map of the states where we have been, color-coded, 
in either On the Bus or in our 2019 series or rural 
roundtables.
    While we've missed the northwest, as we can tell, on our 
major trips, we have developed a sense of the economic reality 
in both urban and rural settings. What we found in rural 
communities is that the people have no options for shopping.
    In Tutwiler, Mississippi, we saw that there was only the 
Dollar General store on the outskirts of town, and it had no 
fresh fruits or vegetables. If you wanted something else to 
eat, there was only, quote, "gas station chicken," prepared by 
the gas station owners, and there were no options, no choices. 
There were also no restaurants or fast food outlets.
    Outside Tiffin, Ohio, the story was the same. The rural 
residents referred to their Dollar General as the shopping mall 
because it carried a bit of everything and was their only 
option.
    In rural northern California, we learned that the tribal 
casino was beginning to stock food items in their souvenir 
store because the casino bus was the only bus transportation in 
several countywide areas. People without cars were depending on 
the bus. It was the only way for many families to get to any 
form of a store, and these rural residents had no store, no 
choice, no opportunity.
    Chained CPI's major premise of options does not exist for 
wide swaths of our people. This results in families having to 
pay the single price offered. There's no capacity to shop for 
lower prices. There's also no capacity to, quote, "buy in bulk" 
because there's no extra money available for the added bulk 
cost. And there's no room available in cramped rental spaces to 
store the products, and often no convenient transportation to 
haul bulky items home.
    Additionally, in urban settings, as well as rural, low-
income families are already stretched thin. In Milwaukee, 
Wisconsin, I met Billy and his wife and two boys, aged 14 and 
six. They told me--Billy told me that he and his wife are 
employed, but their rent and utilities take their entire 
salaries. Billy said living in the car was not an option for 
the boys.
    So, they consolidate the rent--their wages for rent, use 
SNAP benefits for the boys during the day, and go to St. 
Benedict the Moor dining room in the evening for a free supper. 
Billy said it was the--it was okay for a parent to eat once, 
maybe twice a day, but growing children need more than that. 
This truth was emphasized by his 14-year-old son eyeing his 
dad's roll, sitting uneaten on Billy's plate. Billy felt his 
son's desire without even looking at him. He just said, okay, 
go ahead, you can have it. And this hungry 14-year-old pounced 
on the roll.
    If there is any reduction in SNAP benefits for this hard-
working family, Billy's kids will suffer the same fate as their 
parents, and they will not be able to eat three meals a day.
    As a Catholic sister, I value the moral framework set by my 
faith. At World Youth Day in 2013, Pope Francis said, ``The 
measure of the greatness of a society is found in the way it 
treats those most in need, those who have nothing apart from 
their poverty.''
    So, my prayer for you, as you look at this critical issue, 
is may our wealthy Nation recover its moral and constitutional 
compass and invest in our children and their families. This 
will be a step toward realizing our constitutional commitment, 
for we, the people, to promote the general welfare and secure 
the blessings of liberty to ourselves and our posterity.
    Mr. Connolly. Thank you, Sister Campbell. Mr. Smith?

     STATEMENT OF ROB SMITH, ADVISORY BOARD MEMBER, LEGACY 
                      REPUBLICAN ALLIANCE

    Mr. Smith. Good morning, Honorable Chair, Ranking Member, 
and honorable members of this committee. My name is Rob Smith. 
I'm a U.S. Army veteran and a proud Black conservative.
    I grew up in the working class community of Akron, Ohio and 
was raised by a single mother who was, yes, on government 
assistance for a small point in time when I was very young 
after my mother and father divorced. Although we didn't have 
much money or access to a whole lot of resources, she worked 
very hard to provide for her children.
    Like many who grew up in Akron, Ohio, I attended some of 
the lowest performing and under-funded schools in the 
neighborhood. Disaffected teachers would routinely come to 
class unprepared, and my counselors had little idea of what to 
do with a student who quite obviously didn't have an athletic 
scholarship ready and available for him upon graduation.
    What we did have in our poor, working-class neighborhood, 
however, was a strong sense of community and an undying belief 
in self. The figureheads, parents, and activists of my day 
always spoke positively of a brighter future, one where they'd 
have successfully passed on the torch of leadership and hope of 
opportunity to us so that we could pave the way for additional 
successes, just like our forefathers and mothers had done for 
us.
    That undying belief in the ability for us as human beings, 
each of us all endowed with great gifts, to continuously 
improve and better our circumstances and the world around us is 
what drove me to better myself and to serve my country.
    I graduated from high school near the top of my class and 
decided to serve my country as an infantryman in the United 
States Army, including a deployment to both Kuwait and Iraq. I 
credit the time that I spent in the Army with building the 
unshakable belief that I have in myself; that I am not a 
victim; that there is nothing that I cannot achieve; and that I 
am in the best place I could possibly be in to do this, which 
is the United States of America.
    I joined the military because I love my country and because 
it offered a working-class kid like me the opportunity to see 
the world far beyond the confines of Akron, Ohio. It offered me 
the American Dream.
    Today, I'm a political analyst who has provided commentary 
on several major news networks, including CNN and Fox News. I 
have met the last two Presidents of the United States. I have 
met Ambassadors, Congressmen and women, and senators.
    I advocate for veteran's rights. I protested for the repeal 
of the Don't Ask, Don't Tell law that barred service for 
military members who were openly lesbian, gay, or bisexual.
    I am the first person in the history of my family to 
receive my bachelor's degree from Syracuse University and also 
my master's degree from Columbia University.
    I'm now a contributor to several reputable online resources 
and will publish my memoir in May.
    I am living a life far beyond what my high school education 
and upbringing would have suggested, and I wouldn't have been 
able to accomplish any of these things had my mentality and 
beliefs about self been any different. If I had succumbed to 
the soft bigotry of low expectations or to any of the rhetoric 
from elected officials who wished to substitute the role that 
strong individuals and communities play in supporting each 
other, with that of an all-powerful, unaccountable, and bloated 
government, where would I be today?
    Granted, it wasn't until I started to reject the messages 
that seek to take control and responsibility out of the hands 
of the individual and put that into the government that I saw 
my greatest personal and career successes.
    Just a few decades ago, such an existence would have been 
infeasible in the communities where I come from. No one wants 
their lives dictated by the government. It is the exact 
antithesis of the values that have and continue to make our 
country great.
    Yes, I have family members who remain on government 
assistance. I have seen firsthand how the government can easily 
take on the role of father in the household and the destruction 
and dysfunction that that can cause.
    After a long and steady drum beat by this latest flock of 
so-called progressives, people have unfortunately come to 
believe that more government may actually be a solution to 
their problems.
    A casual glance at the economy under President Trump 
suggests otherwise. Since his first days in office, the 
President has worked to unlock the economy by removing 
regulatory burdens from small business owners and entrepreneurs 
so that they can continue to innovate in the diverse 
communities where they live, work, and play. I have seen Black, 
small-business owners that I myself patronize thrive in this 
economy.
    Objectively, we can see results. We can see poverty on the 
decline. The Black unemployment rate at the lowest it's been in 
recorded history, and the stock market has experienced an 
unprecedented rally that's undoubtedly been good for the 
retirements of working-class American families. The proof is 
right in front of us for all to see.
    Even those who advocate for socialism----
    Mr. Connolly. Mr. Smith, you are going to----
    Mr. Smith [continuing]. Continue to reap benefits of the 
greatest economy this generation has seen.
    Mr. Connolly. Thank you, Mr. Smith.
    Mr. Smith. Thank you.
    Mr. Connolly. Ms. Hutchison.

  STATEMENT OF AMY JO HUTCHISON, ORGANIZER, HEALTHY KIDS AND 
               FAMILIES COALITION, WEST VIRGINIA

    Ms. Hutchison. Good morning. My name is Amy Jo Hutchison. 
I'm a single mom of two who's lived in West Virginia all my 
life. I'm also a community organizer for West Virginia Healthy 
Kids and Families, Our Future West Virginia, where I organize 
and advocate for poor, marginalized folks.
    Today I'm here to help you better understand poverty 
because poverty is my lived experience. And I'm also here to 
acknowledge the biased beliefs that poor people are lazy and 
that poverty is their fault. But how do I make you understand 
things like working fulltime for $10 an hour is only about 
$19,000 a year, even though it's well above the Federal minimum 
wage of $7.25 an hour.
    I want to tell you about a single mom I met who was working 
at a gas station. She was promoted to manager, and within 30 
days, she had to report her new income to DHHR. Within 60 days, 
her rent bumped from 475 to 950 a month, she lost her SNAP 
benefits, and her family's health insurance. So, she did what 
poor people are forced to do all the time. She resigned her 
promotion and went back to working part time just so she and 
her family could survive.
    Another single mom I know encouraged her kids to get jobs. 
For her DHHR review, she had to claim their income, as well. 
She lost her SNAP benefits and her insurance, so she weaned 
herself off of her blood pressure medicines because she, 
working full time in a bank and part time at a shop on the 
weekends, couldn't afford to buy them. Eventually, the girls 
quit their jobs because their part-time fast food income was 
literally killing their mother.
    You see, the thing is, children aren't going to escape 
poverty as long as they're relying on a head of household--
excuse me--who's poor. Poverty rolls off the backs of parents 
and right onto the shoulders of our children despite how hard 
we try.
    I can tell you about my own food insecurity and the nights 
I went to bed hungry so my kids could have seconds, and I was 
employed full time as a Head Start teacher.
    I can tell you about being above the poverty guideline, 
nursing my gallbladder with essential oils and prayer, chewing 
on cloves, eating ibuprofen like they're Tic Tacs because I 
don't have health insurance and I can't afford a dentist.
    I have two jobs and a bachelor's degree, and I struggle to 
make ends meet. The Federal poverty guidelines say that I'm not 
poor, but I cashed in a jarful of change the other night so my 
daughter could attend a high school band competition with her 
band. I can't go grocery shopping without a calculator. I had 
to decide which bills not to pay to be here in this room today. 
Believe me, I pulled myself up by the bootstraps so many damn 
times that I've ripped them off.
    The current poverty guidelines are ridiculously out of 
touch. The poverty line for a family of three is $21,720. Where 
I live, because of the oil and gas boom, a three-bedroom home 
rents for $1,200 a month. So, if I made $22,000 a year, which 
could disqualify me from assistance, I would have $8,000 left 
to raise two children and myself on, and yet the poverty 
guidelines wouldn't classify me as poor.
    I Googled Congressmen's salary the other day, and according 
to senate.gov, the salary for senators, representatives, and 
delegates is $174,000 a year. So a year of work for you is the 
equivalent of almost four years of work for me, and I'm $24,000 
above the Federal poverty guidelines' definition of poor. It 
would take nine people working full time for a year at $10 an 
hour to match y'all's salary.
    I also read that each senator is authorized $40,000 for 
state office furniture and furnishings, and this amount has 
increased each year to reflect inflation. That $40,000 a year 
for furniture is $360 more than the Federal poverty guidelines 
for a family of seven.
    And yet, here I am, begging you on behalf of the 15 million 
children living in poverty in the United States, on behalf of 
the one in three kids under the age of five, and nearly 100,000 
children in my state of West Virginia living in poverty, to not 
change anything about these Federal poverty guidelines until 
you can make them relevant and reflect what poverty really 
looks like today.
    You have a $40,000 furniture allotment. West Virginia has a 
median income of $43,000 and some change. People are working 
full time and are hungry. Kids are about to be kicked off their 
free and reduced lunch rolls because of changes y'all want to 
make to SNAP, even though 62 percent of West Virginia SNAP 
recipients are families with children--the very same children 
who cannot take a part-time job because their parents will die 
without insurance.
    People are working full time in this country for very 
little money. They're not poor enough to get help; they don't 
make enough to get by. They're working while they're rationing 
their insulin, and they're skipping their meds because they 
can't afford food and healthcare at the same time.
    So, shame on you. Shame on you, and shame on me, and shame 
on each and every one of us who haven't rattled the windows of 
these buildings with cries of outrage at a government that 
thinks their office furniture is worthy of $40,000 a year and 
families and children aren't.
    I'm not asking you to apologize for your privilege, but I'm 
asking you to see past it. There are 46 million Americans 
living in poverty, doing the best they know how with what they 
have, and we, in defense of children and families, cannot 
accept anything less from our very own government. Thank you.
    Mr. Connolly. Thank you, Ms. Hutchison.
    [Applause.]
    Ms. Hutchison. Thank you.
    Mr. Connolly. I think we just heard why this hearing is 
important.
    I call on the distinguished chairman of the full committee, 
Ms. Maloney, for five minutes of questioning.
    Chairwoman Maloney. Thank you, Mr. Chairman. Today's 
important hearing examines how this administration is seeking 
to further distort what it means to live in poverty in the 
United States by adopting an inflation index that ignores true 
costs. We will also examine how the current official poverty 
measure inadequately addresses the needs of families with low 
incomes, as we have heard from some of our witnesses.
    This proposal, one of many efforts by the administration 
that could hurt children and families across this country who 
are living in poverty, policies that failed to help those in 
need, and, in fact, continue poverty.
    Ms. Hutchison, you work in West Virginia with low-income 
moms; correct?
    Ms. Hutchison. Yes, ma'am.
    Chairwoman Maloney. And you have likely heard claims that 
because the stock market and economy are doing well, all 
Americans must be benefiting from these economic gains. So, my 
question is, are you benefiting from these economic gains? Are 
the women and families that you work with benefiting from the 
economic gains?
    Ms. Hutchison. My answer to that, ma'am, would be no. West 
Virginia is one of the handful of states here in the Nation 
whose poverty rate has steadily increased over the course of 
the past two years.
    Chairwoman Maloney. Ms. Hutchison, what are some of the 
ways that life in poverty continues and impedes a child's 
future opportunities? How does it stop future opportunities, 
living in poverty?
    Ms. Hutchison. I'm pretty emotional right now, so I want to 
apologize for that right off the bat.
    There is a toxic stress that comes with being poor. It 
affects me, I pray, a lot more than it does my girls. You don't 
know what it's like to not be able to feed your kid what the 
neighbor kids are eating. That's why we have Title I 
programming, right, because they have extra needs and extra 
requirements for those kids in poverty.
    We all know that it affects the first thousand days of a 
child's life, having proven to be the most important as far as 
brain development. If we can't nurture these kids, if we keep 
gutting the systems and crippling their mothers, we're never 
going to be able to see any improvement as far as children, 
whether that's social or emotional development.
    You know, we also have a childcare crisis in West Virginia, 
so these kids aren't getting the early education that they 
require. But we're not working and focusing on brain 
development because that's so closely related to nutrition and 
economic, socioeconomic status, that we have to start paying 
attention to that.
    Chairwoman Maloney. Thank you. Sister Campbell, your 
organization works nationwide to promote justice and dignity 
for all. How would the administration's proposal to adjust the 
inflation index for the poverty threshold affect the families 
with whom you work?
    Sister Campbell. Congresswoman, I am keenly aware that this 
proposal would undercut the very tenuous hold that families 
have on stability.
    I want to underscore that these families are not victims. 
These families are not subject to takeover by government. What 
they are subject to, however, principally, is low wages, low 
economic opportunity.
    The alternatives to SNAP benefits, would be raising wages. 
If we raised wages in a significant fashion, that would 
dramatically reduce the need for SNAP benefits.
    But in my view, working families deserve to eat. And when 
their wages and hours don't match the current costs, well, then 
we, as a Nation, have a responsibility to care for them.
    Chairwoman Maloney. Thank you. Mr. Dutta Gupta, you have 
researched poverty and inequality across our Nation. Could you 
summarize for some of us your key findings that detail the 
harms the families are suffering as a result of the actions of 
this administration? Specifically, how are current policies 
continuing inequality and deepening inequality in our Nation?
    Mr. Gupta. Thank you, Congresswoman Maloney, for the 
question.
    First, we have seen, despite continued economic growth, for 
the first time since the enactment of the Affordable Care Act 
an actual decline in health coverage for children, which is 
really astonishing, and that's because of some of the sabotage 
and efforts to attack the health coverage options.
    And then we've seen tax cuts that obviously wildly, 
disproportionately go to the very wealthiest and enrich people 
who least need it, while people who have the low and moderate 
incomes got very, very little, if anything.
    Chairwoman Maloney. Thank you. My time has expired. I would 
like to send you future questions in writing. Thank you for 
your testimony.
    Mr. Connolly. I thank the Chair.
    Chairwoman Maloney. All of your testimony.
    Mr. Connolly. The Chair now calls on Mr. Comer from 
Kentucky. Five minutes.
    Mr. Comer [continuing]. Chairman. And I want to thank all 
the witnesses for being here today. My questions are for Mr. 
Smith.
    We are talking about the poverty line here today, and the 
poverty line is determining eligibility for certain welfare 
payments and welfare programs. So, I think it is pertinent to 
discuss the welfare system and whether or not it is working. I 
have always believed that the best way to get people out of 
poverty is not necessarily through government programs, but 
through creating an environment where those living in poverty 
have access to a good-paying job.
    If you look at the macro environment today, we have a very 
strong economy. Now, I represent a lot of areas of excessive 
poverty, and I will admit, there are communities in Kentucky 
and in America that have not benefited as well as others.
    But regardless of what community where I travel in 
Kentucky, there are an enormous number of jobs available in 
every community right now. The unemployment rate is the lowest 
it has been in my lifetime, and I do not know--I represent 30 
counties in Kentucky. I do not know of a single county that 
does not have at least 50 to 100 jobs posted. Some counties 
have thousands of jobs posted online.
    But my question, Mr. Smith, with reference to the welfare 
system, is the welfare system today working for people in 
poverty?
    Mr. Smith. It is not of my opinion that the welfare system 
today is working for people in poverty. My experience in 
welfare, like I testified, I have family members that are on 
government assistance. My mother was on government assistance 
when I was younger.
    My experience, from what I've seen with my own two eyes, 
I'm not somebody that studies this and works in it--works in it 
in some big overarching way. What I have seen with my own two 
eyes is people become dependent on a system. What I have seen 
is people figure out ways that they can use a system. And what 
I see is that fundamentally, when people are within the system, 
what I've seen for years and years and years and years, it's 
almost like it takes away their ability to see anything more 
for themselves and to see a better life for themselves because 
they are so used to being what I call the surrogate father, 
Uncle Sam. That is what I have seen with my own two eyes.
    Now, I know that people may have different experiences. I'm 
not here to testify about anybody else's experiences. I'm here 
to tell you what I've seen with my own two eyes. And as 
somebody that is an African American in this society, there are 
so many messages that are pushed to us that we need government 
assistance, that we need help, that we are weak, that we are 
victims, that we cannot create, that we cannot do things for 
ourselves.
    And I feel like the welfare system as it stands right now 
is a part of those messages that we get. And I am aware that 
there are more Whites than Blacks in America, and I am aware 
that there are more White people on government assistance than 
Black people. But, what I see is the primary messages that are 
given about the welfare system, about government assistance, 
are being directed toward African Americans.
    Mr. Comer. OK. One of the complaints I hear from both 
employers desperately trying to find more workers, as well as 
people who are living right there on the poverty line, is that 
many times it is more advantageous to remain on welfare than to 
take that leap of faith and go into the work force.
    I believe that what we should be talking about is trying to 
come up with bridge programs to get people from welfare to the 
work force, and we have to recognize the fact that minimum wage 
is not a living wage.
    Having said that, I do not think it is government's 
responsibility to determine the minimum wage. I think if you 
want to start a business and you can find employees willing to 
work for minimum wage, I think that is your prerogative.
    But, I do have a problem in states like Kentucky where we 
give tax credits and tax incentives and grants to companies 
that do not pay a living wage. I think that is the way to 
address the wage issue. I do not think we need to set minimum 
wages in Congress for the private sector, but I do believe we 
need to re-evaluate our tax incentives as far as awarding the 
companies that do not pay a living wage.
    So, I hope that we can take this committee hearing and look 
at ways to get people that are able-bodied from welfare out of 
this cycle, this never-ending cycle of welfare, that is not 
work. It is not work.
    Mr. Connolly. Thank you.
    Mr. Comer. We need to get them into the work force, and 
that is what we need to focus on today, Mr. Chairman. Thank 
you.
    Mr. Connolly. I thank the gentleman. The gentleman from 
Maryland, Mr. Sarbanes, is recognized for five minutes.
    Mr. Sarbanes. Thank you, Mr. Chairman. I am going to thank 
the panel for your testimony. I appreciate you coming today. I 
want to salute my colleague, Ms. Ocasio-Cortez for her 
legislation on recognizing poverty.
    This question of whether we even see poverty in the ways 
that we should as lawmakers and political leaders in this 
country I think is a persistent one.
    I remember when I went to the funeral for Freddie Gray in 
Baltimore, and Elijah Cummings, former Chair of our full 
committee here, gave one of the eulogies and he said, did you 
see him? Did you see him when he was alive? I mean, there were 
thousands of people in the church that day, but Congressman 
Cummings wanted to know when he was alive, did we see Freddie 
Gray? Did we see him?
    And I think the answer is we often do not see people in 
poverty in this country in a way that motivates us to do the 
right thing and to put the policies in place. Too often the 
people we see are the people who have the power to get access 
to us and show up in our offices because they are entitled, 
they can get the meetings, and then the policy gets made on 
their behalf.
    We have to fix that. The moral integrity of a Nation can be 
measured by how we deal with poverty, and by that measure, we 
are failing every single day in this country. It is incredible 
in the richest Nation on earth that so many people suffer in 
poverty and often suffer in silence.
    So, I want to thank the whole panel. I want to thank you, 
Sister Campbell, for the work of Network, the Faithful 
Democracy initiative where you are connecting the dots for us 
in terms of how money and influence determines policy when it 
comes to economic equality, or let's call it inequality in this 
country; where Wall Street decides what we should focus on, and 
the people that are left out and locked out do not have their 
priorities being met.
    You know, I went back and found a quotation from Bob Dole, 
Republican Senator, 1983. Here is what he said. He said, ``When 
these political action committees give money, they expect 
something in return other than good government.'' So, he was 
talking about the tie between how lobbyists spend their money 
and special interests spend their money and the policy that 
gets made and it is not what good government should do.
    But then he went on to say this. Very poignant. He said, 
``Poor people don't make political contributions. You might get 
a different result if there were a poor PAC up here in 
Washington.'' That is Bob Dole talking about the reality of how 
money influences policy and the impact it has in terms of our 
ability to address poverty in this country.
    So, Sister Campbell, maybe you could just give me your 
thoughts. I expect you probably have some perspective on this, 
given the great work that Network is doing to try to expose 
that connection between money and policy that leaves people who 
are suffering in poverty out of the equation. So, I invite you 
to give me your thoughts on it. Thank you.
    Sister Campbell. Thank you, Congressman. I want to connect 
it to what Congressman Comer was saying because I was recently 
in West Virginia--in Kentucky. I was also in West Virginia, but 
I was recently in Kentucky, in the eastern part, in Congressman 
Rogers' district. And they have many signs there for help 
wanted, and the fact is they're all minimum wage jobs and 
people can't survive on these minimum wage jobs.
    So, the--what--the roundtable we had, Mickey McCoy, who's a 
high school teacher, almost was in tears at the end when he 
said the thing that he wanted most, just wanted most, was for 
his representatives to actually represent him; just to meet 
with him just once and hear his actual story instead of only 
speaking to big coal.
    And I think that is the tension in our democracy right now. 
And it goes to many of the issues that you've been working on, 
Congressman Sarbanes, on the issues of access to voting and 
making sure that we have an actual democracy.
    But the key is, if you don't talk to ordinary people 
working minimum wage jobs, working in the schools, working in 
the various service sectors, then you're going to come away 
with your preconceptions that have been nourished by the ones 
you do talk to, who are the folks at the top, who then benefit 
from tax policy. It's a serious problem.
    Mr. Sarbanes. I yield back.
    Mr. Connolly. I thank the gentleman. The Chair now 
recognizes the gentleman from Georgia, Mr. Hice, for five 
minutes.
    Mr. Hice. Thank you, Mr. Chairman, and thank each of you 
for being here today and for this hearing.
    Mr. Smith, I do want to go to you. We, as I am sure each of 
you know, we spend a little over a trillion dollars a year in 
welfare programs, over 90 different programs between Federal, 
state, and local. And yet, even with this trillion dollars a 
year, 12 percent of Americans remain in poverty.
    So, I do think--and I would like to piggyback some on Mr. 
Comer's line of thought and questions, as well. I do think it 
is pertinent for us to have a discussion about the welfare 
system and whether or not it works. Obviously, what all of us 
want is to see people come off of poverty. And in spite of 
spending a trillion dollars a year, we still have 12 percent in 
poverty.
    So, the question that I want to begin with you is, do you 
think welfare programs as they currently exist are helping to 
alleviate poverty?
    Mr. Smith. I don't--do not believe that welfare systems as 
they stand are helping to alleviate poverty because I think 
that we're not talking a lot about personal responsibility and 
decisions that sometimes people may make that can put them into 
poverty.
    Case in point: There is not a single woman in my family who 
made it to 21 years old without having a child. Every woman in 
my family who had a child before that age also had a child and 
was unmarried.
    And I think that these things really do factor into whether 
people will live in poverty, and I feel like the welfare system 
as it stands right now is supposed to be a governmental 
solution to a problem that starts with different choices. And I 
think that if the programs keep on expanding and expanding and 
expanding, we're not taking into account the choices and we're 
not talking about the fact that personal responsibility is 
going to have some sort of effect as to whether or not people 
live in poverty.
    Now, I told you my story earlier when I testified, and I'm 
a bootstrapper through and through. I grew up working class 
poor. I made the decision at 17 years old to join the United 
States Army. The United States Army is where I learned 
discipline. The United States Army is where I learned how to 
take care of myself. The United States Army is where I learned 
all of the things that I believe that this government 
intervention, that these welfare programs, are trying to imbue 
in the households without having to be there.
    That is what I really truly fundamentally believe. I 
realize that that is not a popular position to take not only in 
this chamber, but in American society, but it is what I believe 
because it has been my personal experience.
    Mr. Hice. Well, and the studies that I have read through 
all of this, you are spot on in identifying it is a complex 
issue. But from my research, the three key issues and factors 
to get out of poverty include family, education, strong 
education, and economic opportunity. Those three things have to 
be available for all this. So, it's a multifaceted issue that 
we have got to discuss.
    Here primarily today we are talking about the welfare 
programs primarily themselves. So, if the welfare programs as 
they currently exist are not ultimately helping to alleviate 
poverty, then we must second ask what does alleviate poverty. 
You have mentioned family. We have mentioned need of education, 
kids graduating from high school, and so forth.
    But on the welfare side of things, the economy is critical 
so the people can have the opportunities, as Mr. Comer was 
saying, to get a high-paying job.
    Mr. Smith. Absolutely.
    Mr. Hice. So what is the role of the economy in alleviating 
poverty?
    Mr. Smith. The role of the economy, I mean, we have a very 
strong economy right now. And what I wanted to say, as well, is 
that we don't realize how many more people are working right 
now. I am nowhere near the one percent and this economy has 
benefited me via the tax breaks that I got when I did taxes 
with my husband. It helps in a lot of different ways.
    And I think that when there's more opportunity for people 
out there--you have Detroit right now--I read a story from NPR 
in Detroit. There are prisoners that were released for non-
violent offenses over--under the First Step Act, which was 
passed by this administration. These are men and women who 
served 10, 15, 20 years. There are now so many jobs that people 
that are employers are rethinking their stance on hiring people 
that were previous offenders, and there are so many jobs open 
for them right now. So, I think that the economy really does 
have a very strong part in lifting people out of poverty. I 
really do.
    Mr. Connolly. I thank the gentleman.
    Mr. Hice. Thank you, Mr. Chairman.
    Mr. Connolly. The Chair recognizes himself.
    The idea that someone is poor because they made bad 
choices, or they embrace poverty as a choice is a very 
convenient way of ignoring reality. People are born into 
circumstances.
    [Applause.]
    Mr. Connolly. People are born into circumstances. They do 
not control them. No child chooses poverty. This kind of 
rhetoric is a leftover from the Calvinist idea of 
predestination and the elect. It is your fault you are poor. 
What is wrong with you?
    Yes, we have a full employment economy. I have lots of jobs 
in my district that are open. All of them require a graduate 
degree and a security clearance. Got one? We are not going to 
employ the people who have to find work at below-minimum wage, 
pumping gas or flipping hamburgers behind the fast food desk.
    And, oh, by the way, this myth that this is welfare 
dependence; and if only you broke that cycle, you would not be 
poor; have the courage to make the right decision. The fact of 
the matter is the data shows that since we actually adopted 
programs from the Great Society, we did reduce the poverty 
level. We did help people with a handout to actually get out of 
poverty, to give kids an opportunity.
    I started my opening statement by remembering Robert 
Kennedy's visit to the Mississippi Delta. This country did not 
see poverty. It was shocked. When those images were on 
television and we saw distended bellies in our country, we were 
shocked into action. No kid made that decision. No parent made 
that decision.
    I am glad there is occasion where somebody apparently 
bootstraps himself up successfully, but not everybody has that 
opportunity. And that is not the story for lots of people, and 
it is not their fault. We are having a hearing today about the 
impact of a Chained CPI at the margins of people who are 
already living in the margins.
    This is a test about who we are as a people. This is a test 
about whether we are willing to invest in our kids and their 
parents and guardians in the richest country in the world. To 
live with such poverty and, oh, by the way, to add to the 
stigma of blame like it is their fault is not worthy of a great 
country. It is not who we ought to be.
    [Applause.]
    Mr. Connolly. Ms. Hutchison, I want to give you a chance 
because we heard earlier testimony that actually things are a 
lot better in West Virginia since West Virginia became a state 
in 1863.
    [Laughter.]
    Mr. Connolly. I am very glad to hear that news.
    Ms. Hutchison. They got that one right.
    Mr. Connolly. Although, we are still a little bitter in 
Virginia, but I will let that go.
    And the other thing is whatever problems we have got pretty 
much are due to a war on coal. So your circumstances and that 
of your family, your understanding is that is based on the war 
on coal?
    Ms. Hutchison. I don't have a coalminer in my family, sir.
    Mr. Connolly. Oh. Maybe you would like to react to some of 
the testimony we heard about your state.
    Ms. Hutchison. Yes. And, you know, in the state of West 
Virginia in 2019, it was reported that two in five--two in 
every five children are on SNAP. Two in every five. I have two 
children myself, and there are three kids that live next door. 
So my two kids used to be on SNAP. I can't--one thing I do want 
to say is that I have been told for 15 years to stop having 
kids I couldn't afford. That's a child support issue and that's 
an accountability issue for the other parent who is not 
supporting their child, not this one.
    [Applause.]
    Ms. Hutchison. I'm sorry, but I wanted to say that out 
loud.
    There are 349,423 West Virginians that rely on SNAP every 
month, and I was--we were talking this morning. I said I know a 
lot of poor people. That's my job. I organize poor folks. I 
don't know a welfare queen.
    We are resilient. We were talking about how hard it is to 
get to D.C. when you're poor and you don't have a credit card, 
right? That was my asset. That was my thing. I don't have a 
credit card. And I don't know if you all know, you can't 
manipulate your way through D.C. without a credit card.
    You know, and so we were talking about just the barriers, 
buying new clothes, feeling like you don't belong.
    Mr. Connolly. Thank you, Ms. Hutchison. My time is up.
    The Chair recognizes--well, actually Mr. Massie I think is 
next, Mr. Grothman. Up to you, how you want to go.
    The gentleman from Kentucky, Mr. Massie, is recognized for 
five minutes.
    Mr. Massie. Thank you, Mr. Chairman. You and I have 
something in common. We worked in local government before. And 
when I was a county judge executive, which is kind of like the 
mayor of a county, one of the problems that was presented to me 
that we had to solve was we had a country store that wanted to 
be able to take WIC, but they did not have Internet access that 
would enable them to process that. So, there are some barriers 
that are still out there, and some of those are unique to rural 
areas.
    I am from Kentucky myself. I asked the local grocer like 
what percent of your sales are SNAP, and I was actually shocked 
it was like 30 or 40 percent. So, with recognizing that this is 
an important issue and that a lot of people depend on the 
social safety net, I would like to remind folks that our goal 
is not to expand the social safety net so much as it is to try 
and help people get--use that net, but to get them back off of 
the net.
    And, so, I wanted to talk about some of the things that the 
President highlighted in his State of the Union last night, and 
I would like to submit the State of the Union speech, the 
transcript of that, for the record, if I may.
    Mr. Connolly. Without objection. And the Chair will also 
add the Democratic responses to the speech last night for the 
record.
    Mr. Massie. Without objection. So, the President 
highlighted--and I will draw this directly from his speech. One 
of the things he highlighted is that since his election, we 
have created seven million new jobs, five million more than 
experts projected during previous administration.
    The unemployment rate is at the lowest in over half a 
century.
    The average unemployment rate under this administration is 
lower than any administration in the history of our country.
    The unemployment rates for African Americans, Hispanic-
Americans, and Asian-Americans have reached the lowest levels 
in history.
    African American youth unemployment has reached an all-time 
low.
    African American poverty has declined to the lowest rate 
ever recorded.
    The unemployment rate for women has reached the lowest 
level in almost 70 years. Last year, women filled 72 percent of 
all new jobs added.
    Veterans' unemployment rate dropped to a record new low, 
and I think that is something we also really need to focus on: 
When people come back from serving our country, making sure 
that there is a path for them to become gainfully employed.
    The unemployment rate for disabled Americans has reached an 
all-time low. I think that is another area where we need to 
focus.
    Workers without a high school diploma--and I know people 
that had to quit high school because their family needed them 
to be employed. Workers without a high school diploma have 
achieved the lowest unemployment rate recorded in U.S. history. 
And getting that diploma also is something that we need to 
focus on, too, because that is a barrier to the job market.
    A record number of young Americans are now employed.
    And also, I wanted to say that under this administration--
and I know that this is somewhat controversial, but I do not 
think it should be--7 million Americans have come off the food 
stamp rolls, and 10 million people have been lifted off of 
welfare.
    I think that is an important thing to look at, at that 
metric, while still understanding that we need that social 
safety net for some of those people. But the goal ultimately is 
to help them so that they do not need it.
    And in the last--in just three years of the current 
administration, 3.5 million working-age people have joined the 
work force.
    So, these are all things that I think are worth 
highlighting that were in the State of the Union address 
because we are talking about poverty here today and how to deal 
with it. And ultimately, the best thing we can do is not expand 
the number of people who are in poverty, but to pull up as many 
people as we can out of poverty.
    And with that, I yield back the balance of my time.
    Mr. Connolly. I thank the gentleman. The gentlelady from 
the U.S. Virgin Islands is recognized for five minutes. Ms. 
Plaskett.
    Ms. Plaskett. Thank you, Mr. Chair, for having this hearing 
and for the importance of the discussion of poverty in the 
United States.
    You know, I am reflecting on the fact that I heard so much 
`I' and `me.' And I hear so much `I' and `me' and bootstrap 
stories, which really just go against the whole Christian 
notion of thinking outside of yourself. It disturbs me. But 
then when I also hear discussions of women and choices that 
they make, that also explains a lot of the `I' and `me.'
    As someone who had my first child at 21, and three before I 
left law school, I do not see the issue with that. I have a 
journalist and an architect and an engineer out of those 
children. Discussions that we cannot take care of ourselves and 
that the community does not negates what makes this country so 
great.
    And as for the speech last night, 14 million people--14 
million jobs were added in the last administration, far more 
than this administration. The unemployment rate dropped from 10 
to five percent in the last administration. Only two percentage 
points have changed in this administration.
    And when we take 10 million people off of welfare, what is 
the cost to us actually? If you do not even want to talk about 
the social costs, if that does not move you, what is the 
financial cost in the long run of doing something like that?
    Dr. Gupta, removing children from welfare, healthcare 
access, does that reduce--will removing that reduce the Federal 
deficit? And does it shrink the Federal budget?
    Mr. Gupta. Thank you, Congresswoman. Look, programs like 
Medicaid and CHIP, all the programs we're talking about, SNAP, 
WIC, they provide a fundamental, basic foundation for all 
families, for all kids who participate.
    The research is overwhelming that these programs, when you 
look at the next generation, so the kids who participate, will 
do better in school. If we want more high school graduation, 
Medicaid and SNAP help with that. We know that. The kids will 
be healthier, fewer chronic health conditions. That will be 
less costly to our society.
    And, by the way, when we hear a figure like one trillion 
dollars being spent a year, a lot of that is a wildly 
inefficient healthcare system. The money is not going to low-
income families. It's going to the providers, the doctors, the 
nurses, and the people who run diagnostics and equipment. It's 
not going directly to the families, a lot of that money.
    So, one of the worst things we could do is reduce access to 
programs like Medicaid and CHIP and SNAP. I have yet to see 
research that suggests any of these programs that we're talking 
about has nothing but positive effects for that second 
generation, probably by helping address the toxic stress that 
Ms. Hutchison talked about, by allowing parents to spend more 
time with their kids.
    And the final thing I'd just note is----
    Ms. Plaskett. But, you know, those are very--those are 
arguments that do not necessarily sway people; [that] is the 
bottom line. I am talking about the financials because for many 
of us in this room, that is what is important.
    Mr. Gupta. They'll be--they'll earn more. Kids who are 
exposed to Medicaid and SNAP and other programs are likely to 
earn more as adults, to be employed more as adults, to pay more 
taxes.
    There's increasing evidence that some of these programs may 
even pay for themselves. Like housing assistance programs, 
childcare programs we don't have, like paid family and medical 
leave. So, we should really think about what happens over the 
long term.
    And I think you're exactly right that we're going to see 
greater tax receipts, we're going to see greater economic 
output, and our economy is going to prosper much more.
    Ms. Plaskett. So it is an investment we are making in 
Americans?
    Mr. Gupta. Absolutely.
    Ms. Plaskett. Sister Campbell, thank you so much for the 
work that you are doing in your community.
    How are low-income families particularly vulnerable to 
increasing healthcare costs?
    Sister Campbell. Low-income families are stressed--
stretched thin in attempting to respond to the healthcare 
needs. The holes in our system, if you do not qualify for 
Medicaid or you're in a state which has not expanded Medicaid, 
means that your kids are vulnerable.
    In Mississippi at our rural roundtable, we heard the story 
about how kids sign up for sports in the high school because 
they can get a free healthcare screening in advance of playing 
the sports, which they cannot get on their own in their family. 
This is a level of desperation that needs to be addressed. Our 
kids are suffering.
    Mr. Connolly. I thank----
    Ms. Plaskett. Thank you so much. You know, I just think 
about--in this closing--in the Virgin Islands, the Federal 
Government has determined that we are not entirely American 
citizens, and so our Medicaid costs and the things that we 
receive are at a much lower level than other places. Therefore, 
our local government's economy is strained. When parents have 
to make the choice of not having health insurance, not having 
Medicare because we cannot afford to put them on there because 
the cost, the percentages, are too high for us. In the end, it 
costs us more because of the illnesses that those children 
have, because of the strain on local government to meet the 
needs of those who have to go to our local hospitals to do so.
    Mr. Connolly. I thank----
    Ms. Plaskett. So I want to thank my colleague, Ms. Ocasio-
Cortez, for her bill and the work that this committee is doing 
to address these issues. Thank you.
    Mr. Connolly. I thank the gentlelady.
    The gentleman from Wisconsin, Mr. Grothman, is recognized 
for five minutes.
    Mr. Grothman. Mr. Smith, thanks for being here. It takes 
kind of guts to show up in this sort of environment.
    Karl Marx, you know, obviously one of his goals was the 
evolution of the family. And the programs that began in the 
1960's under Lyndon Johnson--well, there are plus and minuses 
to all the programs, be it SNAP, housing, TANF, Pell grants, 
medical care. They all seem to share a discouragement of 
marriage, and you mentioned how, in your family, a lot of that 
was going on.
    Could you comment on the effect on the eligibility of these 
programs and kind of the decline of the family structure in 
America since the programs began?
    Mr. Smith. Yes, I will do my best. First of all, I just 
wanted to say that, you know, there's definitely a lot of `I' 
and `me' in my story, but for me sitting here, the `I' and the 
`me' represents millions of Americans of all colors who have 
similar stories about how they were able to help themselves, 
about how they were able to lift themselves up out of poverty, 
about how they were able to believe in themselves enough to 
know that they could do better. And I just wanted to say that.
    Now, when you talk about the family structure and you talk 
about how the welfare system has accelerated the decline of the 
family structure, you have to look at the rules that make it 
more beneficial for women not to have a man in the home, to not 
be married, right? And these things, when they go in generation 
and generation and in generation, and I've seen with my own two 
eyes this create generational dependency, generational 
dysfunction. And when you get that deep into it, it gets harder 
and harder for people to get out of it.
    And the messages that say that it is the government's 
responsibility to take care of people, like I said--there was a 
part of my speech I didn't get to. But basically, I agree with 
the President when he said that we can't just leave people on 
the streets.
    But the purpose of the safety net was never dependency; it 
was transition. So the arguments I constantly hear about these 
programs, that I constantly hear about the expansion of the 
safety net, is not about transitioning people off of it. It is 
always about keeping people on. And I do believe that it 
engenders a sort of mental idea with people.
    Mr. Grothman. Right. Can I cut you off?
    Mr. Smith. Yes.
    Mr. Grothman. I love talking to immigrants, and one of the 
things I get when I talk to immigrants, cab drivers or whatever 
in this town, is they are living the American Dream.
    Mr. Smith. Absolutely.
    Mr. Grothman. They came here with broken English, you know, 
very little education, but they are living the American Dream.
    And I wondered if one of the reasons you feel that why 
immigrants who come here from Afghanistan, Guatemala, wherever, 
are living the American Dream, whereas Americans born here are 
not, is Americans born here, kind of from some of the other 
people in the room, get the message that ask the government, 
ask the government, ask the government. And people who come 
here from other countries who were not brought up in that 
culture are living the American Dream, have their own house, 
because they do not have that burden of being told you should 
look to the government.
    Mr. Smith. Well, Congressman, I don't believe that it's a 
difference between people that were native born in America and 
people that are immigrants. I believe that it's a difference in 
messaging that people get.
    If you are a kid from a working class or poor background, 
or comes from poverty like I have, and if you get messages over 
and over and over again that you cannot exist in this society, 
that you cannot make it, that this society is racist and is 
sexist and is xenophobic and is homophobic and all of these 
different things, then you--if you take in those messages, you 
will not be motivated to succeed.
    I truly believe that the messages that we give to some of 
our poor and working class kids in this society is that you 
don't need to invent anything for yourself, you don't need to 
do anything for yourself, because the government will do it. 
And I fundamentally believe that these messages are very 
damaging for the youth of America.
    Mr. Grothman. I guess what I am saying is people born in 
this country get those messages. People who just show up from 
Afghanistan or Guatemala might not breathe in those messages.
    Mr. Smith. Yes.
    Mr. Grothman. So they form families and become part of the 
middle class.
    Mr. Smith. Yes. And I just wanted to say--I've got 15 
seconds left--if we take completely 100 percent the element of 
personal responsibility and personal choices out of where 
people end up in life, I don't think that that's a good thing.
    Mr. Grothman. Oh, it is just a horrible thing to say. Just 
horrible to say that you are entirely a victim, yes.
    Mr. Connolly. I thank the gentleman.
    The gentlelady from Michigan, Ms. Lawrence, is recognized 
for five minutes.
    Mrs. Lawrence. Yes. Mr. Smith, you evoked a lot of `me' and 
`I' and `bootstraps.' I have a question for you. You talked 
about the women in your family making bad choices. Obviously, 
you feel because you have a lot of `I's' that you were not a 
bad choice to be born.
    The women in your family, do you look at them as part of 
the problem? Did they make bad decisions? Because you said 
these women who had children, they made bad decisions.
    So, are you saying that the culture that you were brought 
in, that those women in your family are bad people? They are 
lazy? They do not respect the sense of your accomplishments? 
So, when you come around, are you ostracized because you are 
not on welfare anymore?
    You told your 'me' and 'I' and you are sending a strong 
message right now as a Black man that Black women are 
dysfunctional and they want to sit around and get welfare. So, 
can you clear that up for me?
    Mr. Smith. Congresswoman, I would love to. And I absolutely 
did not say that my--the women in my family were bad people.
    Mrs. Lawrence. They made bad choices.
    Mr. Smith. They--and I didn't say that they made bad 
choices either. Congresswoman, what I was--okay. Alright.
    Congresswoman--yes. If I could answer the question. 
Congresswoman, what I would like to say is that there is no way 
that I can separate the fact that some of the women in my 
family, who I love and deeply respect--and we have had this 
conversation amongst each other, and I've had this conversation 
with them. There is no way for me to separate the struggles 
that they have had in their lives with the fact that a lot of 
them did have children very early in life.
    Mrs. Lawrence. OK. Mr. Smith, I want to ask this question.
    Mr. Smith. Yes.
    Mrs. Lawrence. The fact that you were able to pull up 
yourself from bootstraps, you had no control over the decision 
that your parents or your mother made. But the fact that you 
received food stamps so that you could eat, so that you could 
develop, so that you could have a brain, there is a 
contribution that happened in your life that we have to take 
beyond you. There are children in America who are hungry, and 
we as a country that sends billions of dollars to other 
countries to feed hungry children, how can we in this country, 
so that we can produce men like you, children who can grow up 
and for whatever reason that their mother made--I want you to 
know, any woman who raises her children and does the best she 
can, I am going to have her back. And I am not going to allow 
anyone----
    [Applause.]
    Mrs. Lawrence [continuing]. To sit here and say that. And, 
for the record, I have been married for 47 years, sir, and I 
raised my children with my husband. But that does not allow me 
to wear the `me' hat and look down on any woman who, if she 
cannot feed her children----
    And something I want to put on the record. Do you know, if 
you have children and you want to go to work and you try to pay 
for childcare, your whole check goes to childcare. And when you 
say we create a system that encourages women----
    So, if I work--and usually she will have to work two jobs 
because the wages are so low, and then someone will charge them 
for childcare; or else she leaves them at home by themselves. 
Oh, that is illegal. So there are so many hurdles.
    I want to ask Ms. Hutchison. I thank you for your work 
because being poor in America has been painted with this 
negative brush that you are lazy, you are not trying to get 
these jobs, there are a million jobs around you. Can you 
explain how in your community, West Virginia, relies on SNAP? 
And would you--what would it mean for families and neighbors if 
this resource was no longer there? So, paint a picture where 
we, as a government, say no more SNAP or assistance.
    Ms. Hutchison. Yes. First of all, most of the people that I 
know are the working poor, ad I think may be one of the reasons 
why our unemployment numbers have fallen, is because we are 
working two and three jobs.
    And then as far as SNAP, I live in the city. I live in one 
of the better off counties in the state, the northern part, and 
I live downtown. The Title I--the elementary school down the 
street from my house is a Title I school. For years, the 
poverty numbers in that one school were so high that every 
child in that school received free breakfast and lunch before 
other schools in the county had ever reached that mark.
    Now every single school in my county receives free and 
reduced lunch, and I think that speaks directly to your 
question. You know, we struggle enough right now. The food 
pantries, they're under so much pressure. And we saw this 
during the Federal shutdown last year. Especially the food 
pantries were struggling. Most of our food pantries in my 
community are run out of small churches on private donations, 
and now they're worried that the more that we gut the SNAP 
program that the heavier their burden is going to be to the 
point where they're not going to be able to survive either.
    Mr. Connolly. Thank the----
    Mrs. Lawrence. I want to close with a statistic, sir. In 36 
months, before the 2016 election, the U.S. economy added more 
than eight million jobs. And the labor market has, since the 
current President has been in office, 6.7. Thirty-six months in 
the previous administration. Thank you.
    Mr. Connolly. I thank the gentlelady. The gentleman from 
North Carolina, Mr. Meadows, is recognized for five minutes.
    Mr. Meadows. Thank you, Mr. Chairman. I want to come back 
and hopefully what we can do is have some action items.
    So, Ms. Hutchison, I heard in your opening testimony where 
you were talking about how actually someone gets a job and they 
have reduced benefits and, you know, it is a disincentive, I 
guess, for keeping a job or actually having children keep a 
job. Is that correct? Because I heard that--actually, I guess 
it was their wages that get calculated in according to your 
testimony, and it would allow them to not qualify either for 
housing or for assistance?
    Ms. Hutchison. Right, and so they would lose those benefits 
within days of reporting their income.
    Mr. Meadows. So, if there was some way to actually protect 
that, where you say, okay, you get a job and actually where you 
have a ramp to actually work through that.
    Because, listen, I grew up with very humble beginnings, and 
with a loving mother and loving father, and yet I understand 
what--well, I don't know that I understand, but I have empathy 
for the stories that you are sharing with me.
    And what I also know is that in trying to get out of those 
humble beginnings, there were a lot of incentives. I mean, you 
know, I wanted, you know, something that maybe my neighbors had 
that we did not have.
    And, so, what I would like from you, if you would get to 
this committee as part of a homework--not to give you homework, 
but if you can give me three things that families in West 
Virginia, if they had the ability to get a job, and whether it 
is $10 an hour, you know, $8 an hour, and how it affects those 
other subsidies or safety nets.
    What would be your recommendation on how, as a Federal 
Government, we can look at that to allow them the opportunity 
to live that American Dream and hopefully end up like Mr. Smith 
where the support was a temporary thing and not something that 
is a life cycle of having to have on that. Could you do that 
for me?
    Ms. Hutchison. I would be honored to do that for you.
    Mr. Meadows. Alright. And Sister Campbell, here is the 
other area. This is not your first rodeo. You have been here 
before. You know how the testimony goes.
    And here is what I would--in terms of children and those 
needs, as I said in my opening remarks, free and reduced lunch 
is a big thing in the western mountains of North Carolina. 
Sometimes it is the only decent meal that they get that day. 
And, so to the extent that we can look at those areas that 
allow for children to get the assistance, and knowing also how 
do we put a safety net around that assistance for children that 
do not get sidelined because of other choices in family 
situations. I mean, some of the most heartbreaking things that 
I saw was actually money that was going to feed kids that 
actually got sold to buy drugs.
    And when you see that, we have got to figure out a way that 
we can actually meet the needs that we are all talking about 
here and yet--if you can come up with two ideas in your area to 
provide to the committee, would you be willing to do that?
    Sister Campbell. I would love to. It would be great because 
I think there's a lot of misunderstanding about the cycles of 
poverty and the fact that the majority of folks cycle off----
    Mr. Meadows. Right.
    Sister Campbell.--Assistance just the way Mr. Smith's 
family did.
    Mr. Meadows. Right.
    Sister Campbell. And, so, it is not this, what some folks--
some folks like to call a hammock or mischaracterized that way. 
But I'd be happy to get you that data.
    The other piece to know is that the--it's not just school 
lunch or breakfast. It's also weekend backpacks that----
    Mr. Meadows. Right.
    Sister Campbell.--Many in the rural community----
    Mr. Meadows. We have a backpack program that honestly has 
worked really well, and it is one--but, in that, we are working 
with food banks. We are working with a number of other 
businesses in the area. And sometimes, in fact oftentimes, it 
is those groups that come together with a small amount of 
Federal assistance and whole lot of private compassion and work 
that actually does a much better job.
    Sadly, Ms. Hutchison, you talked about, you know, what we 
do here in Congress and the misplaced priorities of 
congressional budgets. You are preaching to the choir. I mean, 
every day I look at things and say why are we spending money 
for X, Y, and Z? And, so, to the extent that we can do that, it 
would be great.
    Is it Mr. Dutta Gupta? OK. My apology. That North Carolina 
tongue has a harder time saying your last name.
    But as we look at this, here is what I would ask of you. 
You mentioned earlier in your testimony about how actually--I 
guess you said that people on SNAP and others actually have a 
better achievement rate. And, so, I would be very interested in 
those because, listen, I have been around long enough to know 
that he who pays for the study wins the study. And, so, I guess 
what I would love to do is look at the cross tabs and look at 
that because, as a small modification, I think that that is 
important.
    And I appreciate the Chairman's graciousness and I--all of 
you, if you will get that homework back to us, I think we will 
be in a good place. Thank you.
    Mr. Gupta. I look forward to it.
    Mr. Connolly. I thank the gentleman. The gentleman from 
California, Mr. Khanna, is recognized for five minutes.
    Mr. Khanna. Thank you, Mr. Chair.
    Ms. Hutchison, thank you for your very moving testimony. 
You know, one thing you said really struck me, which is that 
you said you are not asking people up here to give up their 
privilege, but to look beyond their privilege. And I thought 
that was quite a remarkable observation. So, I wanted to give 
you the opportunity, I mean, if you were in Congress or if you 
were working for someone in Congress, what would be the main 
things you would do to help people?
    Ms. Hutchison. I don't know if I'd ever be able raise 
enough funds to run for Congress, but I'd look good sitting in 
one of those chairs one day.
    I think one of the--I'd have to check my bias, to be honest 
with you, walking in here because I am so used to being told 
that this is my fault, that I am lazy. West Virginia has the 
more--most veterans per capita than any other state in the 
Nation. Poverty fuels the military machine. People join the 
military because they're so poor they can't make it any other 
way.
    The other thing that I want to say is that sometimes when I 
walk into spaces like this, I struggle. I wanted to go buy new 
clothes for today because I felt like that's what was expected. 
Like I had to dress myself up to look like everybody else and 
to talk like everybody else.
    One thing, thank you for noticing your own privilege 
because I think that's the--it's like that's the first step in 
the right direction.
    The other thing is I am very honored to be here today. I 
don't know why God chose me to be the one person to speak on 
behalf of millions of poor people, but I hope I did well.
    And the one thing is, if we start talking to poor folks and 
less about them, then that's how we're going to fix this 
problem. We're talking about budgets and you give me a roomful 
of single moms that are living on a food stamp budget----
    [Applause.]
    Ms. Hutchison--and we're going to know where every single 
penny goes. You know, we have so many skills because of--
because of our poverty that we don't celebrate and we don't 
recognize.
    West Virginians are the most resilient and hardest-working 
people I have ever met. We don't know how to give up. It's in 
our DNA.
    And, so, we have actually worked on legislation on the 
state level of my organization to try to--the bill was called 
Stop Punishing Work and Marriage. Because what happens is when 
you get married or get a better-paying job, you lose your 
benefits immediately. And, so, there is no way. And so the 
system is a handout rather than a hand up.
    And I think it's going to take people who are impacted by 
these issues sitting at a table and having real, honest 
conversations. You've explained to me what your side of it 
looks like as far as numbers and policies and concerns. And I 
can get you a roomful of impassioned women and men who would 
love to sit and tell you what the other side of that looks 
like, too.
    Mr. Khanna. Well, thank you.
    Ms. Hutchison. Thank you for the space.
    Mr. Khanna. Thank you, Ms. Hutchison, and thank you for 
coming here. And you are making a big impact and you should be 
proud of what you are doing.
    Ms. Hutchison. Thank you.
    Mr. Khanna. I wanted to recognize and thank Representative 
Ocasio-Cortez for her leadership and doing something that is 
long-overdue and actually helps my district. I mean, the cost 
of living in my district is enormous, and we have a problem 
where people who are clearly under the poverty line are not 
getting Head Start, are not getting basic services. And, so, I 
think that the legislation that Representative Ocasio-Cortez 
has authored really can make a big difference.
    And I wanted to ask you, Mr. Dutta Gupta, who--I know you 
have done a lot of work on this issue. Why was the poverty line 
defined the way it was? And what would you recommend that we do 
to capture really what the poverty rate is?
    Mr. Gupta. Thank you, Congressman Khanna. So, briefly, the 
poverty line was defined the way it was because of data 
limitations, because of this quest for some simplicity.
    But remember, even Mollie Orshansky, who developed it, 
didn't expect it to be so durable. She thought that there would 
be improvements, that we would come--we would have a different 
poverty line by now.
    And what we should do is very much the sort of approach you 
see in Representative Ocasio-Cortez' legislation. We should 
have researchers and other experts, specifically including 
people with recent lived experience with poverty, help inform a 
process where we develop a poverty line and measure that is 
connected with people's real lives, including acknowledging the 
fact that there are a lot of costs that have grown 
substantially, like childcare, health, higher education, since 
the 1950's.
    Mr. Khanna. Thank you. Thank you, Mr. Chairman.
    Mr. Connolly. I thank the gentleman. The gentlelady from 
the District of Columbia, Ms. Norton, is recognized for five 
minutes.
    Ms. Norton. Mr. Chairman, this matter of people having--
women having children out of wedlock, single mothers, as it 
were, prompted me to go online. And I think these facts need to 
be in the record.
    In the last Republican spending bill, you know when they 
were in the majority before we took over, they proposed to cut 
four million people from Title X access to birth control. In 
the repeal--that of course did not pass. We kept it from 
passing.
    In the ACA, the Affordable Care Act, the so-called repeal 
and replace--you know, the replacement that never came--Senator 
Cruz would have permitted insurers to refuse to cover birth 
control. So, talk about blaming the victim. Blame the Congress. 
Because women who have access to birth control embrace it, but 
they need to be able to afford it and they should not, in a 
committee hearing like this, be made to take the blame when the 
blame is on the Congress.
    I want to thank you, Mr. Chairman, for this series of 
hearings. This is not the only one you are having on children 
and poverty. At a time when, as we heard in the State of the 
Union last night, there are all these jobs, they are low-wage 
jobs. So I am interested in what happens. That is where the 
proliferation has come.
    The Trump administration wants to put, after 10 years, 
200,000 school-age children off of the lunch program. Either 
they would have to pay for it themselves--they would have to 
pay for it themselves. They could not get what we call free 
lunch now.
    I would like to ask you, Ms. Hutchison. It occurs to me, 
wait a minute, they go to school five days a week. What do they 
do on the weekends? How are they fed since I understand that 
this may be the only--this school lunch may be the only 
nutritious meal they receive?
    Ms. Hutchison. A lot of times they rely on the backpack 
programs, that's very common throughout the state of West 
Virginia. Where a church or other social service organization 
will make sure they have enough at least to munch on throughout 
the weekends.
    A lot of times they go to the soup kitchens and the 
missions. And a lot of times they just might not eat.
    Ms. Norton. These programs, Mr. Chairman, are vital for 
poor people to have lunch. We cannot do anything on the 
weekend, but at the very least, we should not be cutting them 
or reducing what they receive during those five days.
    Mr. Dutta Gupta, do you have something to say on that?
    Mr. Gupta. Yes, Dutta Gupta. I just want to say something 
about the focus on basically single mothers and primarily women 
of color.
    First, the evidence suggests that kids in single--who grew 
up in single-mother households actually do better than those 
where the parents' divorce. So, I think we need to keep that in 
mind. Single mothers are doing an amazing job raising kids who 
have more upward mobility in many cases.
    Second, on reproductive health, the evidence suggests this 
is all about whether this is a choice or not. Actually, having 
a kid seems to have little to no effect on one's economic 
outcomes if you have a choice.
    So, a lot of what's happening here is that women do not 
truly have the reproductive health choices that you've 
described and so are harmed by that. When they can control 
their reproductive health decisions, the outcomes for the kids 
and for the women are comparable to women who don't have kids.
    Ms. Norton. I remember the controversy over the Obama 
school lunch program when he was indeed more--what that 
administration did was to try to replace some of this junk 
food, pizzas and fries and the rest, and then there was some 
criticism. I wonder if any of you can tell us, was that program 
a failure? And was the administration's--what it now proposes 
to do is to put all that junk food back on. What should we be 
doing about that? Sister Campbell?
    Sister Campbell. It's a great question. And what our 
evidence indicates just in our anecdotal conversations around 
the country is that having nutritious food for young kids is 
critical, and that junk food precipitates----
    Ms. Norton. Weren't there some problems? Weren't there some 
criticisms that the children might not eat what the Obama 
Administration--the more nutritious----
    Mr. Connolly. Sister, you have 10 seconds in which to 
answer, and then I will turn to the author of the legislation 
at hand.
    Sister Campbell. That was a concern raised by the 
opposition. In fact, what it appears, based on teachers' 
reports to us, is it didn't materialize. The hungry kids eat.
    Ms. Norton. Thank you.
    Mr. Connolly. Wow, that was great.
    [Laughter.]
    Mr. Connolly. I thought for sure you would fudge it. I was 
always influenced by nuns in my life, and I credit what I am 
doing now to my fifth grade nun, who was angry at me in school 
and was coming down the aisle, and I thought, oh, I am in deep 
trouble. And she caught herself. She pointed to me and she 
said, Connolly, all you need is a soap box and you could be a 
politician.
    [Laughter.]
    Mr. Connolly. God bless the fifth grade nun. Now we turn, 
and thank you for your patience, to our colleague, Ocasio-
Cortez. Five minutes.
    Ms. Ocasio-Cortez. Thank you, Mr. Chairman, and I again 
would like to reiterate the gratitude that I have for this 
committee to be able to hold this space and actually have this 
hearing.
    For so long in our country, poverty has been a taboo word. 
It is something that we are not allowed to talk about and it is 
something that we have difficulty acknowledging, and even in 
just the presence of this legislation.
    This legislation that I am putting forward along with my 
colleagues is literally just to recognize poverty in America. 
That is it. Just directing someone, agencies, to just measure 
the level of poverty in this country. It does not even direct 
us to expand social programs. We are not even there yet. We are 
just talking about recognizing poverty, and there is resistance 
to doing that.
    Why? Why? I believe that we do not want to recognize the 
level of poverty in the country because if we did, it would be 
a national scandal; and we will have to force ourselves to 
acknowledge that our systems have failed; and that we are not 
doing enough by our own people in a democracy that is supposed 
to be by the people and for the people, to serve the people of 
the United States of America, and we are not.
    And, so, moving on, Ms. Hutchison, I just want to reiterate 
what everyone in this room knows. You said you do not know why 
God put you in this room. It is because you have been one of 
the most powerful witnesses to ever enter that I have seen in 
my short time here in Congress. And your testimony, I hope, 
will move and change the tide of how we treat poverty in this 
country.
    You know, you brought up something so important, and I want 
to thank you for pointing out the hypocrisy of this system. My 
family was poor not too long ago. Many aspects of my family are 
still poor. My first three months here in Congress, I slept on 
an air mattress and walked to work and people made fun of me 
because I could not afford a second apartment. And that is 
with, you know, all of the privileges bestowed upon this 
office.
    You brought up something so important, which is the mental 
cost and price of poverty. You were talking about how you felt 
self-conscious because you felt like you needed to buy a new 
outfit. And I understand because, like, no one takes the poor 
seriously, so we feel like we need to get all these degrees and 
show up dressed a certain way just so that someone can actually 
believe our story.
    But I just wanted to let you know that your story has 
been--has filled up this entire room. Has absolutely filled it 
up.
    And talk about some things that are crystal clear, 7 
million people have not been lifted off of food stamps in this 
country. They were kicked off food stamps in this country. And 
people are going hungry. They are going hungry because we like 
to use the word 'lift' instead of the truth, which was `kicked' 
and we are booting millions of Americans into the streets 
because we want to believe and dupe ourselves into thinking 
that we are doing better. We are not. We are not.
    Ms. Hutchison, I also want to thank you about bringing up 
the poverty draft and this idea of a bootstrap. You know, this 
idea and this metaphor of a bootstrap started off as a joke 
because it is a physical impossibility to lift yourself up by a 
bootstrap, by your shoelaces. It is physically impossible. The 
whole thing is a joke.
    And when we talk about this poverty draft, about lifting 
ourselves up off the bootstraps, can you talk about that, Ms. 
Hutchison? Can you talk about the poverty draft in this 
country?
    Ms. Hutchison. I would love to. I think, you know, the 
thing is, there's this assumption that if we do more--you know, 
I'm not doing enough to lift myself out of poverty and that's 
what we keep hearing all the time.
    And what you said about kicking people off the rolls, I 
spent a whole summer organizing in rural food pantries across 
West Virginia. I know right now there's a 24-year old woman 
with autism who's too high`functioning for a disability check, 
but yet [bcause of] the mania associated with her autism, she 
has to have a very controlled environment in which to work in. 
Because of the waiver that West Virginia has, the work 
requirements, she's no longer getting SNAP benefits. You know, 
so those are the people that----
    Ms. Ocasio-Cortez. She is going hungry.
    Ms. Hutchison. Yes. And the foster kids who age out of the 
system, you know, who are expected to have a job. West Virginia 
right now--the Department of Justice just left our state. They 
did an investigation because we have 7,000 children in the 
foster care system because of the opioid crisis.
    Because I had a junior in high school look at me, and I 
said, why is everybody drunk and high, because, you know, 
that's what she had just said about her school. And she said, 
because you can't be poor and happy at the same time. I said, 
you just described the opioid crisis to me in 10 words and 
you're a junior in high school.
    You know, and so it's just if you do more, if you do more. 
OK, but $10,000--I mean $10 an hour is $19,000 a year. You 
know, what else are you supposed to do? Because to me, more at 
home is $10 an hour, $10.50 an hour. We have 23 percent of West 
Virginia's childcare workers living in poverty.
    Ms. Ocasio-Cortez. The people caring for our own children--
--
    Ms. Hutchison. The people in charge of their brain 
development, their socioeconomic development. Yes, ma'am.
    Ms. Ocasio-Cortez. I know I am out of time, so I will yield 
the rest of it to the Chair.
    Mr. Connolly. Again, I want to thank our colleague. Thanks 
for your patience and waiting.
    Ms. Ocasio-Cortez. Of course.
    Mr. Connolly. We had a lot of interest obviously in this 
hearing. And I want to thank you for your leadership and your 
bill, and it is a privilege to co-sponsor.
    [Applause.]
    Mr. Connolly. Let me just end by observing this. My roots, 
I'm the grandson of an immigrant, a woman who came from 
Ireland. She was a Catholic girl in Protestant Northern 
Ireland. She came over to the United States in 1920 at the age 
of 18. She had no skill, except she could sew. She had no 
education.
    And when I came along, I decided to look up my Irish roots 
a little bit. You know what is eerie? If you read about the 
Irish famine, which was an early form of genocide, a third of 
the population of Ireland died. Another third emigrated, came 
here.
    There were British laws at the time that forbade the Irish 
in their own country from fishing. There were British laws that 
forbade the Irish from owning their own land. There were 
British laws that forbade the Irish from speaking their own 
tongue or benefiting from their own farming, or to get an 
education.
    But if you read the British official reactions to the 
famine, it is eerily similar to what we hear today. It is your 
own fault. You are lazy. You have too many children. You are 
illiterate. Somehow, intrinsically, there is something wrong 
with you. Even though to come to that conclusion back in the 
1840's, you had to ignore all of the systemic, structural laws 
and impediments that made it impossible for the Irish to 
frankly survive when a famine hit their primary food source.
    We have to get over this idea that there is something wrong 
with you. Are we a community, one Nation, indivisible under 
God, or not? Because if we are, then we help each other. We 
recognize that, through no fault, somebody is in a state we can 
do something about. And that is the ethos we ought to embrace. 
My Catholic social justice doctorate teaches me that, but so 
does my citizenship, proud citizenship, in this country because 
that is who we are as Americans.
    [Applause.]
    Mr. Connolly. Thank you for being here today. Ms. 
Hutchison, you look great.
    [Laughter.]
    Mr. Connolly. And thank you for your courage.
    [Applause.]
    Mr. Connolly. Thank you for your courage. And I promise, 
this will be a dialog we will continue.
    I have a whole bunch of things to enter into the record 
before I adjourn the hearing. And I ask unanimous consent that 
they be entered into the record, there is no objection.
    [Laughter.]
    Mr. Connolly. It helps to be last, doesn't it? And all 
members will have five days, legislative days, within which to 
submit additional written question for the witnesses, which 
will be forwarded to the witnesses for their response.
    And again, I thank everybody for being here today. This is 
the beginning of this discussion, not the end. God bless you 
all. Thank you. We are adjourned.
    [Whereupon, at 12:13 p.m., the subcommittee was adjourned.]

                                 [all]
</pre></body></html>
